BEFORE THE UNITED STATES SUPREME COURT

WENDY ALISON NORA,
Movant-Prospective Petitioner,
v.
THE SUPREME COURT OF MINNESOTA OFFICE OF
LAWYER PROFESSIONAL RESPONSIBILITY,
Prospective Respondent.

EXHIBIT LIST IN SUPPORT OF
MOTION FOR EXTENSION OF THIRTY (30) DAYS' ADDITIONAL TIME
TO FILE PETITION FOR WRIT OF CERTIORARI UNDER
28 U.S.C. SEC. 1257(a) AND SUPREME COURT RULE 13.3
FROM SEPTEMBER 26, 2019 TO OCTOBER 26, 2019

EXHIBIT 1: May 22, 2019 Opinion and Order of the Minnesota Supreme Court (the
Reciprocal Discipline Order
EXHIBIT 2: March 30, 2018 Opinion and Order of the Wisconsin Supreme Court
(the Wisconsin Suspension Order)
EXHIBIT 3: June 28, 2019 Minnesota Supreme Court on June 3, 2019 and
rehearing was denied on June 28, 2019 (Exhibit 3).
EXHIBIT 4: Excerpt of Appendix 11 to the Minnesota Supreme Court displaying
Appendix 4, Exhibit A to the Wisconsin Supreme Court, Movant's August 26, 2009
facsimile to the Dane County Circuit Court
EXHIBIT 5: Email received email on August 26, 2009 at 11:21 a.m. with complete
attachments
EXHIBIT 6: April 24, 2014 Affidavit of Grievant with excerpted Exhibit B
EXHIBIT 7: Prayer for Relief excerpted from the March 1, 2010 operative complaint
in the RICO action in the United States District Court for the Western District of
Wisconsin Case No. 10-cv-748 with complete case caption

EXHIBIT 1

STATE OF MINNESOTA
IN SUPREME COURT
A18-1574

Original Jurisdiction

Per curiam
Took no part, Anderson, J.

In re Petition for Disciplinary Action against
Wendy Alison Nora, a Minnesota Attorney,
Registration No. 0165906.

Filed: May 22, 2019
Office of Appellate Courts

Susan M. Humiston, Director, Nicole S. Frank, Assistant Director, Office of Lawyers
Professional Responsibility, Saint Paul, Minnesota, for petitioner.
Wendy Alison Nora, Minneapolis, Minnesota, pro se.

SYLLABUS
The attorney-discipline proceedings conducted in Wisconsin were
fundamentally fair and consistent with due process.
An indefinite suspension with no right to petition for reinstatement for 1 year
is not unjust or substantially different from the discipline warranted in Minnesota for
knowingly making a false statement of material fact to a tribunal, and for filing three
frivolous lawsuits to harass or maliciously injure another.
Suspended.
Considered and decided without oral argument.

1

OPINION
PER CURIAM.
This case involves the question of whether we should impose reciprocal discipline
on respondent Wendy Alison Nora. The Director of the Office of Lawyers Professional
Responsibility (Director) petitioned to impose reciprocal discipline in Minnesota after
Nora was suspended from the practice of law in Wisconsin for 1 year, In re Nora (Nora
Wis.), 909 N.W.2d 155 (Wis. 2018), cert. denied,

U.S.

, 139 S. Ct. 609 (2018). We

conclude that Wisconsin's disciplinary proceedings were fundamentally fair and that the
discipline imposed by the Wisconsin Supreme Court was neither unjust nor substantially
different from the discipline that would have been imposed if the proceeding had been filed
in Minnesota. We therefore indefinitely suspend Nora from the practice of law in
Minnesota with no right to petition for reinstatement for 1 year.
FACTS
Nora was admitted to practice law in Wisconsin in 1975 and was licensed to practice
in Minnesota in 1985.

Nora Wis., 909 N.W.2d at 157. Nora has previously been

disciplined four times in Minnesota for professional misconduct:

three private

admonitions, and one public discipline. In 1988, she was admonished for failing to deposit
funds into a trust account in violation of Minn. R. Prof. Conduct 1.15(a); she was
admonished twice in 1990, once for practicing law while suspended in violation of Minn.
R. Prof. Conduct 5.5(a), and once for incompetence and representing a client despite a
conflict of interest in violation of Minn. R. Prof Conduct 1.1 and 1.7.

2

In 1990, we suspended Nora indefinitely, with no right to petition for reinstatement
for 30 days, for failing to adequately investigate, making misrepresentations (although the
referee concluded that she lacked a dishonest or selfish motive), bringing frivolous claims,
including litigation that was brought as a delay tactic, and transferring assets in an attempt
to impede collection, in violation of Minn. R. Prof Conduct 1.1, 3.1, 8.4(c), and 8.4(d). In
re Nora, 450 N.W.2d 328, 328-30 (Minn. 1990). We reinstated Nora in 2007 and placed
her on supervised probation for 2 years. In re Nora, 725 N.W.2d 745, 746 (Minn. 2007)
(order).
The Wisconsin disciplinary proceedings at issue involve Nora's professional
misconduct in defending against the foreclosure of her Wisconsin residential property, after
she stopped paying the mortgage that she had secured from Aegis Mortgage Corporation
(Aegis).1 See Nora v. Residential Funding Co., LLC, 543 F. App'x 601 (7th Cir. 2013);
Nora Wis., 909 N.W.2d at 158. The law firm of Gray and Associates, S.C. filed the
foreclosure action on behalf of its client, Residential Funding Corporation (RFC), a related
entity of GMAC Mortgage Group LLC. Nora vigorously opposed the foreclosure, arguing
that RFC did not have standing to seek foreclosure because the assignment of her mortgage
to RFC was allegedly fraudulent and designed to avoid the effect of Aegis' pending
bankruptcy. Nora, 543 F. App'x at 601.
In July 2009, D.P. an attorney at the law firm of Bass & Moglowsky, S.C.

filed

a motion for summary judgment on the issue of the foreclosure of the mortgage. In August

Unless otherwise indicated, the facts set forth below are taken from the Wisconsin
Supreme Court's opinion in Nora Wis., 909 N.W.2d at 158-62.
3

2009, Nora and RFC discussed a possible "Foreclosure Repayment Agreement" (the
Agreement) that RFC had offered to Nora. On August 23, 2009, Nora executed a copy of
the Agreement but also modified a number of material terms.
On August 25, 2009, D.P. informed Nora, via a 4:20 p.m. email, that RFC had
rejected her counteroffer and that "no settlement offer existed." The next morning, Nora
faxed a letter and a copy of the Agreement to Judge J.C., who was presiding over the
foreclosure action. The letter said that as a result of the Agreement, the proceedings in the
foreclosure action " 'are stayed.' Her letter implied that, even if the Agreement was not
in effect, the proceedings must be stayed because an agreement was imminent.
On September 21, 2009, Judge J.C. denied Nora's request for oral argument on
RFC's summary judgment motion, but the judge extended her time to file a response to the
motion until October 1, 2009. Nora did not file a response. Instead, 3 days before her time
to respond expired, she filed a personal bankruptcy petition, which stayed the foreclosure
proceedings.
About 3 months later, when the bankruptcy stay was lifted, Nora's time to respond
to the summary judgment motion again began to run. She did not file a response. D.P.
notified both Judge J.C. and Nora in writing that Nora's time to file a response had expired
and stated that Nora's failure to respond to the summary judgment motion meant that the
court should treat the motion as unopposed. Shortly thereafter, Nora filed several motions
and what she labeled as a "verified response" to RFC's summary judgment motion.
On February 9, 2010, Judge J.C. granted RFC's summary judgment motion,
allowing RFC's foreclosure on Nora's residential property. Judge J.C. also struck Nora's

4

"verified response" as untimely and lacking arguments and supporting affidavits; Judge
J.C. characterized the response as a " 'mixture of argument, motions, and allegations of
fact.' "
Two weeks later, Nora filed a request in the Wisconsin Circuit Court seeking
accommodations, including by re-litigating the summary judgment motion, based on an
alleged disability. She also requested that the court appoint a guardian ad litem for her.
On March 29, 2010, Judge J.C. denied Nora's requests to reconsider his decision granting
summary judgment to RFC and for the appointment of a guardian ad litem. Nora sought
recusal of Judge J.C. and reconsideration of her guardian ad litem request. Judge J.C.
denied her motions for recusal and reconsideration.
On November 15, 2010-2 weeks before the scheduled sheriff's sale Of her
Wisconsin residential property—Nora sued Judge J.C. personally in the United States
District Court for the Western District of Wisconsin, alleging violations of the Americans
with Disabilities Act (ADA), 42 U.S.C. §§ 12101-213 (2012). Nora requested several
forms of relief, including the removal of Judge J.C. from the foreclosure action and
vacation of his summary judgment order. Within 1 week of suing him, Nora filed a motion
to disqualify Judge J.C. from the foreclosure action because he had become an adverse
party to Nora in a lawsuit. In March 2011, Nora dismissed the federal action against Judge
J.C.
On November 29, 2010—the day before the sheriff's sale of her Wisconsin
residential property—Nora filed a complaint in the United States District Court for the
Western District of Wisconsin against opposing counsel in her foreclosure action, alleging,
5

in part, that opposing counsel had violated the federal Racketeer Influenced and Corrupt
Organizations Act (RICO), 18 U.S.C. §§ 1961-68 (2012), by creating a fraudulent
assignment of her mortgage and note to RFC, and for bringing the foreclosure action while
knowing of the fraudulent assignment. See Nora v. Residential Funding Co., LLC, No. 10CV-748-WMC, 2012 WL 12995759 (W.D. Wis. Sept. 30, 2012). The proceedings
continued for nearly 2 years. The federal district court eventually dismissed Nora's claim
as barred by the Rooker-Feldman doctrine.' Nora appealed, and the Seventh Circuit Court
of Appeals affirmed. Nora, 543 F. App'x at 601.
Several months after the federal district court dismissed Nora's RICO complaint as
barred by the Rooker-Feldman doctrine, Nora filed an adversary proceeding against the
same defendants in the United States Bankruptcy Court for the Southern District of New
York. Nora's allegations were nearly identical to those that she asserted in the prior action.
Nora dismissed the adversary proceeding as part of the settlement agreement with the
defendants.
In March 2013, the Wisconsin Office of Lawyer Regulation (OLR) filed a
disciplinary complaint against Nora, which was amended in December 2013 to include a
claim related to the bankruptcy court adversarial proceeding. Counts 1, 3, and 4 of OLR's
amended complaint alleged that Nora's claims in the ADA, RICO, and bankruptcy matters

2

The Rooker-Feldman doctrine prohibits federal district courts from exercising
subject-matter jurisdiction over claims seeking relief that would, in essence, vacate a state
court judgment, because only the United States Supreme Court may review such
judgments. See Exxon Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S. 280, 291-92
(2005); D.C. Ct. of Appeals v. Feldman, 460 U.S. 462 (1983); Rooker v. Fidelity Tr. Co.,
263 U.S. 413 (1923).
6

violated Wis. Sup. Ct. R. 20:3.1(a).3 Count 2 of the amended complaint alleged that Nora's
facsimile informing the court that a settlement was imminent and that the proceedings in
her foreclosure action should be stayed violated Wis. Sup. Ct. R. 20:3.3(a)(1).4
OLR moved for summary judgment on Count 2. After hearing oral argument
spanning 2 days in November 2014 and receiving briefing from the parties, the referee
granted summary judgment in favor of OLR because Nora had admitted, either in her
answer to OLR's amended complaint or during oral argument on OLR's summary
judgment motion, all of the allegations underlying Count 2.
On the remaining counts, the referee held a 4-day evidentiary hearing in April 2016
and received pre- and post-hearing briefing from the parties. In January 2017, the referee
made factual findings and recommendations. She found that Nora lacked a good-faith basis
for pursuing her ADA action against Judge J.C. and her RICO action and bankruptcy
adversary proceeding against opposing counsel. Regarding the ADA action, the referee
found that Nora had not requested an accommodation before Judge J.C. ruled on the
summary judgment motion, that she had no need for accommodation when she filed the

3

This rule prohibits a lawyer from "knowingly advanc[ing] a claim or defense that is
unwarranted under existing law, except that the lawyer may advance such claim or defense
if it can be supported by good faith argument for an extension, modification or reversal of
existing law" or from "fil[ing] a suit [or] assert[ing] a position ... when the lawyer knows
... that such an action would serve merely to harass or maliciously injury another." Wis.
Sup. Ct. R. 20:3.1(a)(1), (3). It is similar to Minn R Prof. Conduct 3.1.
4

This rule prohibits a lawyer from "mak[ing] a false statement of fact or law to a
tribunal or fail[ing] to correct a false statement of material fact or law previously made to
the tribunal by the lawyer." Wis. Sup. Ct. R. 20:3.3(a)(1). It is identical to Minn R Prof.
Conduct 3.3(a)(1).
7

ADA action, and that she filed the ADA action in an attempt to obstruct her foreclosure
case. Concerning both the RICO suit and the bankruptcy adversary proceeding, the referee
found that, based on Nora's 40 years as an attorney and her comments during the summaryjudgment hearing before the district court, Nora understood the Rooker-Feldman doctrine
before filing both of those actions. The referee also found that Nora had pursued all three
actions when she knew they would serve merely to harass. The referee concluded that
OLR had proven each count of misconduct and recommended that Nora be suspended from
the practice of law for 1 year.
Nora appealed. The Wisconsin Supreme Court concluded that the referee's factual
findings were not clearly erroneous and that those findings supported the legal conclusion
that Nora had committed misconduct. The court concluded that Nora should be suspended
for 1 year. Id. Nora sought reconsideration and moved to amend the Wisconsin Supreme
Court's order imposing discipline. The Wisconsin Supreme Court denied reconsideration
but modified its decision by deleting a parenthetical from its discussion of our prior
suspension of Nora in 1990.

See Wis. Office of Lawyer Regulation v. Nora,

No. 2013AP653-D, Order at 2 (Wis. filed June 12, 2018). Nora petitioned the United
States Supreme Court for a writ of certiorari, which was denied. Nora v. Wis. Office of
Lawyer Regulation,

U.S.

, 139 S. Ct. 609 (2018), reh'g denied,

U.S.

139 S. Ct. 1243 (2019).
The Director filed a petition for disciplinary action against Nora, seeking reciprocal
discipline in Minnesota. After Nora filed a response, we ordered the parties to file

8

memoranda addressing whether reciprocal discipline is warranted and the reasons for their
views. We granted Nora's motion to file a reply brief.
Nora argues that reciprocal discipline should not be imposed. She contends that we
should not give the Wisconsin findings preclusive effect because those proceedings were
not fair and violated her right to due process. She asks us to refer this matter to a referee
to hold "a limited evidentiary hearing as an opportunity to show" that she did not violate
any of the Wisconsin Rules of Professional Conduct. The Director argues that we should
give preclusive effect to the Wisconsin findings and that the imposition of reciprocal
discipline is appropriate.
ANALYSIS
When a lawyer licensed to practice law in Minnesota is disciplined in another
jurisdiction, we may, without further proceedings, "impose the identical discipline unless
it appears that discipline procedures in the other jurisdiction were unfair, or the imposition
of the same discipline would be unjust or substantially different from discipline warranted
in Minnesota." Rule 12(d), Rules on Lawyers Professional Responsibility (RLPR). Unless
we determine otherwise, "a final adjudication in another jurisdiction that a lawyer had
committed certain misconduct shall establish conclusively the misconduct for purposes of
disciplinary proceedings in Minnesota." Id.
I.
We must first consider whether Wisconsin's disciplinary procedures were fair.
Wisconsin's disciplinary procedures were fair to Nora "if they 'were consistent with [the
principles of] fundamental fairness and due process.' " In re Fahrenholtz, 896 N.W.2d

9

845, 847 (Minn. 2017) (quoting In re Schmidt, 586 N.W.2d 774, 775 (Minn. 1998)). We
"review the underlying record to see if the attorney received notice of the proceedings and
the allegations against him, and had the opportunity to respond to those allegations and
offer evidence of mitigating circumstances." In re Overboe, 867 N.W.2d 482, 486 (Minn.
2015). "We have consistently held that when the attorney is given notice of the hearing
and an opportunity to respond to the allegations, the proceedings are fair." Id.
Nora first argues that the Wisconsin proceedings were not fair because she was
denied notice of the charge of misconduct regarding making a false statement of fact to a
tribunal. As support, she relies on In re Ruffalo, 390 U.S. 544 (1968). Nora's reliance on
Ruffalo is misplaced.
In Ruffalo, the United States Court of Appeals for the Sixth Circuit disbarred
Ruffalo after he was disbarred by the Ohio Supreme Court. In re Ruffalo, 370 F.2d 447,
454 (6th Cir. 1966). The Sixth Circuit based its decision on a charge of misconduct in the
Ohio proceedings that was added on the final day of the discipline hearing, after Ruffalo
and his employee had testified. See id. at 453-54. The Supreme Court reversed the Sixth
Circuit's reciprocal discipline, holding that the Ohio proceedings violated due process
because Ruffalo was not given "fair notice as to the reach" of the charges against him
before the hearing began. Ruffalo, 390 U.S. at 552. Instead, the hearing "bec[a]me a trap
when, after [it] [was] underway, the charges [were] amended on the basis of testimony of
the accused," who could be "given no opportunity to expunge the earlier statements and
start afresh." Id. at 551.

10

In the Wisconsin disciplinary proceedings, OLR amended its complaint to reflect
Nora's pursuit of a second frivolous claim against opposing counsel, this time in federal
bankruptcy court

not because of Nora's statements in the disciplinary action. In addition,

more than 10 months elapsed between the date that OLR filed its amended complaint and
the date of the hearing on OLR' s motion for summary judgment on the charge for making
a false statement of fact to a tribunal. As a result, Nora was afforded extensive notice of
the misconduct allegations against her.'
Next, Nora argues that she was denied due process because she was not given a full
opportunity to be heard. Specifically, Nora argues that she was denied due process because
she was not given the opportunity to extend the final day of the 4-day evidentiary hearing
on Counts 1, 3, and 4 beyond 5:00 p.m. On the first day of the hearing, Nora moved for a
continuance so that the hearing could be conducted in excess of the allotted 4-day period
(which had been scheduled months prior). Nora provided several reasons for this motion,
including, among other things, her intent to mount a new defense of regulatory capture—
disclosed for the first time that morning. The referee denied Nora's request as untimely
and, on the fourth day of the hearing, reiterated that Nora had been given adequate notice
of the time limitations for the hearing. Before the hearing ended on the fourth day, the
referee entered into the record 50 additional exhibits that Nora sought to introduce.

5

Nora suggests that in its decision, "[t]he Wisconsin Supreme Court amended the
charge" regarding her false statement of fact to a tribunal. We have reviewed both the
amended complaint and the Wisconsin Supreme Court opinion. Nora's claim that the
Wisconsin Supreme Court allegedly amended this charge is not supported by the record.

11

Nora provides no authority supporting her contention that due process entitles her
to an opportunity to be heard at a hearing for an undefined and unlimited period of time.
We conclude that Nora was given the opportunity to be heard and the opportunity to present
evidence of good character and mitigation and to mount a vigorous defense,' as evidenced
by the 2,900-plus pages of documents Nora filed with us, representing a small portion of
the record in the Wisconsin proceedings. Disciplinary proceedings spanning a 5-year
period of time that included an evidentiary hearing lasting 4 days, oral argument on OLR's
summary judgment motion spanning 2 days, and briefing and oral argument before the
Wisconsin Supreme Court provided Nora an ample opportunity to be heard.
Nora also contends that the Wisconsin proceedings were unfair for other reasons.
First, she asserts, she was punished for exercising her First Amendment petition rights. We
rejected this argument in In re Graham, 453 N.W.2d 313 (Minn. 1990). In Graham, an
attorney filed a complaint of judicial misconduct against a federal magistrate judge, moved
for the magistrate's recusal, and stated under oath and in a sworn affidavit that he had
knowledge of a conspiracy between the magistrate judge, the district court judge, a legal
officer, and a lawyer to fix the outcome of a federal case in which Graham was counsel of

6

Nora's defense included, among other things: one answer; one amended answer;
several motions to dismiss; two motions to disqualify the referee; one "proposed amended
complaint" styled as a motion; two motions for an interlocutory appeal; one motion for
sanctions; an attempt to subpoena the testimony of D.P.; one notice of stay after Nora filed
for bankruptcy; allegations that OLR committed fraud on the court; several other
miscellaneous motions; submission of numerous binders of exhibits; several motions for
an extension of time to file briefing; one motion for a mistrial; one objection to the denial
of her motion for a mistrial; one "corrected objection" to the denial of her motion for a
mistrial; and one "clarification" of her objection to the denial of her motion for a mistrial.
12

record. See id. at 315. A referee determined that Graham's allegations were false and
frivolous, lacked any reasonable basis, and were made in reckless disregard of their truth
or falsity. See id. at 319. Graham argued that he could not be disciplined "because the
statements were petitions for redress of grievances," and what Graham said in them were
"absolutely privileged under the [F]irst [A]mendment," under which "he enjoy[ed]
absolute immunity" from discipline. Id. at 319. We held that attorneys, although generally
protected from discipline for their exercise of First Amendment rights, may still be subject
to discipline "[w]hen [the] attorney abuses that right." Id. at 321; see also In re Williams,
414 N.W.2d 394, 397 (Minn. 1987). This is such a case.
Nora's remaining arguments concern the merits of the misconduct claims against
her, none of which persuaded the referee or the Wisconsin Supreme Court.' We decline to
entertain Nora's attempt to re-litigate the Wisconsin disciplinary proceedings. Instead, we
hold that the Wisconsin proceedings were fair because Nora was given notice of the
proceedings and the allegations against her and had the opportunity to respond to those
allegations and offer evidence of mitigation. Accordingly, the Wisconsin Supreme Court's
findings and conclusions of misconduct "establish conclusively" Nora's "misconduct for
purposes of [this] disciplinary proceeding[]." Rule 12(d), RLPR.

7

Nora argues that the elements of res judicata or collateral estoppel must be satisfied
before we may consider reciprocal discipline under Rule 12(d), RLPR. This argument is
meritless. Rule 12(d), RLPR, rather than the common law doctrines of collateral estoppel
and res judicata, is the governing standard for when we will give another jurisdiction's
determination that an attorney committed misconduct conclusive effect.
13

II.
Having concluded that the proceedings were fair, we next turn to whether the
discipline imposed in Wisconsin is unjust or substantially different from the discipline
warranted in Minnesota. Id. We have imposed indefinite suspensions with no right to
petition for 1 year, or more, in cases of similar misconduct involving harassing and
frivolous litigation and dishonest statements. See, e.g., In re Selmer, 866 N.W.2d 893,
900-01 (Minn. 2015) (imposing a 1-year suspension for misconduct involving a pattern of
frivolous and harassing litigation, abuse of the discovery process, and failure to
acknowledge wrongdoing); In re Butler, 868 N.W.2d 243, 247-52 (Minn. 2015) (imposing
a 2-year suspension for a pattern of pursuing frivolous litigation on behalf of homeowners,
fraudulently joining defendants, refiling cases that had been previously dismissed, and
failing to pay sanctions); In re Ulanowski, 800 N.W.2d 785, 788-800 (Minn. 2011)
(imposing a 1-year suspension for misconduct including filing frivolous claims, making
misrepresentations to a court, and harassing opposing counsel). Given the similarity of
Nora's misconduct here and her misconduct that led to her prior suspension, her
disciplinary history, and the gravity of the conduct at issue, the 1-year suspension imposed
in Wisconsin is neither unjust nor substantially different than the discipline warranted in
Minnesota.
Accordingly, we order that:
1.

Respondent Wendy Alison Nora is indefinitely suspended from the practice

of law, effective 14 days from the date of this opinion, with no right to petition for
reinstatement for 1 year from the effective date of the suspension.

14

Respondent shall comply with the requirements of Rule 26, RLPR (requiring
notice of suspension to clients, opposing counsel, and tribunals), and shall pay $900 in
costs, plus disbursements, pursuant to Rule 24, RLPR.
If respondent seeks reinstatement, she must comply with the requirements of
Rule 18(a)—(d), RLPR. Reinstatement is conditioned on successful completion of the
written examination required for admission to the practice of law by the State Board of
Law Examiners on the subject of professional responsibility and satisfaction of continuing
legal education requirements. See Rule 18(e)—(0, RLPR.
Suspended.

ANDERSON, J., took no part in the consideration or decision of this case.

15

EXHIBIT 2

Office of Lavryer Regulation v. Nora (In re Nora), 909 N.W.2d 155, 2018 WI 23, 380 Wis.2d 311

380 Wis.2d 311
909 N.W.2d 155
2018 WI 23
In the Matter of DISCIPLINARY PROCEEDINGS AGAINST Wendy Alison
NORA, Attorney at Law:
Office of Lawyer Regulation, Complainant-Respondent,
v.
Wendy Alison Nora, Respondent-Appellant.
No. 2013AP653-D
Supreme Court of Wisconsin.
Oral Argument: November 7, 2017
Opinion Filed: March 3o, 2018
[909 N.W.2d 157]

For the respondent-appellant, there were briefs and an oral argument by Wendy Alison Nora
and Access Legal Services, Minneapolis, Minnesota.
For the complainant-respondent, there was a brief and an oral argument by Paul W.
Schwarzenbart on behalf of the Office of Lawyer Regulation, Madison.
ATTORNEY disciplinary proceeding. Attorney's license suspended.
PER CURIAM.
[380 Wis.2d 314]
11 1 Attorney Wendy Alison Nora appeals from the report of the referee, Attorney Lisa C.
Goldman, who found that Attorney Nora had committed four violations of the Rules of
Professional Conduct for Attorneys and recommended that Attorney Nora's license to
practice law in Wisconsin be suspended for one year).
[380 Wis.2d 315]

2 Having heard oral argument and having fully reviewed this matter, we conclude that the
referee's factual findings are not clearly erroneous and that those findings support the legal
conclusion that Attorney Nora committed the four counts of professional misconduct alleged
in the Office of Lawyer Regulation's (OLR) amended complaint. We further determine that
the serious nature of Attorney Nora's misconduct and her continued refusal to acknowledge
her improper use of the judicial system requires a one-year suspension of her license to
practice law in this state.

iastca se

-1-

Office of Lawyer gulation v. Nora In re Nora , 909 N.W.2d 155, 2018 WI 23, 380 Wis.2d 311 Wis., 2018

113 Attorney Nora was admitted to the practice of law in this state in June 1975. Sheimas also
licensed to practice law in the state of Minnesota in 1985. She currently practices law under
the name Access Legal Services in Minneapolis, Minnesota.
¶ 4 Attorney Nora has been the subject of professional discipline in this state on one prior
occasion. In 1993 this court suspended Attorney Nora's license to practice law in Wisconsin
for 30 days, as discipline reciprocal to that imposed by the Supreme Court of Minnesota.
[909 N.W.2d 158]
In re Disciplinary Proceedings Against Nora, 173 Wis. 2d 66o, 495 N.W.2d 99 (1993) ( Nora
).2

[380 Wis.2d 316]

¶ 5 The allegations of misconduct in this case arise out of a foreclosure action in the Dane
County circuit court against a residential property owned by Attorney Nora (the foreclosure
action) and three subsequent civil actions filed by Attorney Nora against the circuit court
judge and opposing counsel involved in the foreclosure action. An understanding of some of
the procedural history of the foreclosure action, as found by the referee or which is
undisputed, is necessary to understand the misconduct findings against Attorney Nora.
¶ 6 On March 3, 2009, the law firm of Gray and Associates, S.C. (the Gray firm) filed a
foreclosure actions against Attorney Nora's residential property on behalf of Residential
Funding Corporation (RFC), which was a related entity of GMAC Mortgage Group LLC.
Shortly after the initiation of the foreclosure action, the law firm of Bass & Moglowsky, S.C.
(the Bass firm) also appeared as co-counsel on behalf of RFC. Judge Juan B. Colas was
assigned to preside over the foreclosure action.
11 7 In July 2009, after Attorney Nora had filed a number of motions and an answer to the
complaint, Attorney David Potteiger of the Bass firm filed a motion for summary judgment
on the issue of the foreclosure of the mortgage by RFC.
[38o Wis.2d 317]
¶ 8 In August 2009 there were discussions between Attorney Nora and RFC/GMAC
regarding the execution of a possible Foreclosure Repayment Agreement (the Agreement)
that RFC/GMAC had offered to Attorney Nora. The following facts were found by the referee
based on Attorney Nora's admission of the facts alleged in the OLR's amended complaint,
either through admissions in Attorney Nora's answer to the amended complaint or through
an oral admission during argument on OLR's motion for summary judgment.
¶ 9 On August 23, 2009, Attorney Nora executed a copy of the Agreement, but she had
modified a number of material terms. Specifically, she had written into the Agreement that
she reserved the right to challenge the amount that remained due on the note and that she
also reserved the right to assert counterclaims against RFC/GMAC.

1-;

iastca se

Office of Lawyer Regulation v. Nora (In re Nora), 909 N.W.2d 155, 2018 WI 23, 380 Wis.2d 311 (Wis., 2018)

¶ 10 After consulting with his client, on August 25, 2009, Attorney Potteiger "informed
[Attorney] Nora in writing that the reservation of her counterclaims found in [Attorney]
Nora's Foreclosure Repayment Agreement counteroffer was rejected" and that "no
settlement offer existed.") Specifically,

[909 N.W.2d 159]

Attorney Potteiger explained in an affidavit that he had sent an email to Attorney Nora at
4:20 p.m. on August 25, 2009, advising her of his client's rejection of her counteroffer. At the
time that the referee held a hearing on the OLR's summary judgment motion, Attorney Nora
did not claim that she had failed to receive Attorney Potteiger's August 25, 2009 email.
[38o Wis.2d 318]
1111 At approximately 9:44 a.m. on August 26, 2009, Attorney Nora sent a letter and a copy
of the Agreement to Judge Colas via facsimile transmission. Her letter said that as a result of
the Agreement, proceedings in the foreclosure action "are stayed." Even if the Agreement was
not then in effect, Attorney Nora's letter implied that an agreement was imminent, which still
required the foreclosure action to be stayed. The referee found that this was a knowing
misrepresentation, as Attorney Nora knew when she sent the letter that her counteroffer had
been rejected and the offer of an Agreement had been withdrawn by RFC.
¶ 12 On September 21, 2009, Judge Colas denied Attorney Nora's request to schedule oral
argument on RFC's summary judgment motion, but extended the time for her to file a
response until October 1, 2009. Rather than file a summary judgment response, however,
three days before that response was due Attorney Nora filed a personal bankruptcy petition,
which stayed the foreclosure action.
¶ 13 The bankruptcy stay was lifted on December 18, 2009, which meant that the remaining
few days to file a response to the summary judgment motion in the foreclosure action
resumed running. Attorney Nora, however, did not file a response to RFC's summary
judgment motion. On January 6, 2010, Attorney Potteiger notified Judge Colas in writing
(with a copy to Attorney Nora) that the bankruptcy stay had been lifted. Attorney Potteiger
sent a subsequent letter to Judge Colas indicating that, in light of the lifting of the stay and
Attorney Nora's failure to file a response, the court could consider the summary judgment
motion as being unopposed. Between January 14-22, 2010, Attorney Nora filed a number of
motions and what she
[380 Wis.2d 319]

labeled as a "verified response" to the summary judgment motion. On February 9, 2010,
Judge Colas granted RFC's motion for summary judgment allowing foreclosure of Attorney
Nora's residential property. He struck Attorney Nora's "verified response" both because it
was untimely and because it was a "mixture of argument, motions, and allegations of fact"

4

stca s

-3-

Office of La er Regulation v. Nora In re Nora 909 N.W.2d 155, 2018 WI 23, 380 Wis.2d 311 (Wis., 2018)

rather than a brief with properly developed arguments and supporting affidavits. Attorney
Nora did not appeal the grant of summary judgment of foreclosure.
¶ 14 On February 22, 2010, after the grant of summary judgment, Attorney Nora filed a
request in the foreclosure action seeking accommodations on account of an alleged
disability.5 She subsequently requested Judge Colas to appoint a guardian ad litem (GAL) for
her. On March 29, 2010, Judge Colas denied Attorney Nora's request for reconsideration of
his order granting summary judgment of foreclosure to RFC and her request for the
appointment of a GAL. His order noted that all essential legal work in the case had concluded
[909 N.W.2d 16o]
prior to Attorney Nora's request for an accommodation or the appointment of a GAL, that
she had failed to present evidence meeting the standard for the appointment of a GAL, and
that she had offered no legal authority for applying her accommodation and GAL requests
retroactively to allow her to relitigate the summary judgment motion. Judge Colas denied a
subsequent motion by Attorney Nora in which she
[380 Wis.2d 320]

sought reconsideration of the denial of her request for a GAL and sought the recusal of Judge
Colas.
11 15 On November 15, 2010, almost eight months after Judge Colas had granted summary
judgment against Attorney Nora, she sued him personally in the United States District Court
for the Western District of Wisconsin (the Western District Court), alleging that he had
violated the Americans with Disabilities Act (ADA), as revised. Her claim essentially was that
Judge Colas had violated her federal statutory rights to disability accommodations due to an
alleged back injury by not granting her extensions of time to respond to RFC's filings in the
foreclosure action. As part of her request for relief, she asked the federal court to remove
Judge Colas from the foreclosure action and to vacate the summary judgment order of
foreclosure. Within a week of filing the federal complaint against Judge Colas, she filed a
motion in the state foreclosure action to disqualify Judge Colas from continuing to preside
on the ground that he was now an adverse party to Attorney Nora in a lawsuit. Attorney Nora
ultimately dismissed the federal action in March 2011.
16 The referee found that there had been no good faith basis for Attorney Nora's federal
ADA claim against Judge Colas. Attorney Nora alleged that in the state foreclosure action, he
had denied her disability accommodations, but the referee found that she had not asked
Judge Colas for disability accommodations prior to his grant of summary judgment nor had
she properly responded to RFC's summary judgment motion despite having months to do so.
Moreover, although Attorney Nora claimed that she had initiated the federal action in order
to obtain disability accommodations in the foreclosure action, the referee stated
[380 Wis.2d 321]
4

1astcase

-4-

Office of Lawyer Regulation v. Nora (In re Nora), 909 N.W.2d 155, 2018 WI 23, 380 Wis.2d 311 (Wis., 2018)

that Attorney Nora admitted that she was no longer experiencing a disability at the time she
filed the federal action, as evidenced by the fact that she never sought disability
accommodations in the federal action. The referee found that Attorney Nora's federal action
against Judge Colas, especially her request that the federal court remove him from the
foreclosure action and void the grant of summary judgment, had not been brought for a
legitimate purpose, but rather to harass Judge Colas and to obstruct the foreclosure of her
property.
¶ 17 On November 29, 2010, the day before the scheduled sheriffs sale of her Madison
property and two weeks after she had initiated her federal lawsuit against Judge Colas,
Attorney Nora sent an email to Attorney Potteiger, the Bass firm, another lawyer, and the
Gray firm, threatening to sue them in federal court if they did not cancel the sheriffs sale.
She filed a federal complaint in the Western District Court the same day alleging, among
other things, that the opposing attorneys had violated the federal Racketeer Influenced and
Corrupt Organizations Act (RICO), by, among other things, creating a fraudulent assignment
of her mortgage and note to RFC and bringing the foreclosure action based on those
fraudulent assignments.6 In her prayer for relief, Attorney
[909 N.W.2d 161]

Nora asked the federal court essentially to void the state court foreclosure judgment and to
award her title to her home free and clear of any lien by RFC and GMAC. She also sought an
injunction against the sheriffs sale
[380 Wis.2d 322]

and what the referee characterized as "exorbitant" compensatory and punitive damages.
11 18 Some of the defendant attorneys and law firms were forced to hire counsel to defend
against Attorney Nora's complaint. On September 3o, 2012, the Western District Court
granted the defendants' motions to dismiss, holding that Attorney Nora's claims were barred
by both the Rooker—Feldman doctrine and claim preclusion. Attorney Nora appealed, and
the United States Court of Appeals for the Seventh Circuit affirmed.
¶ 19 The referee in this disciplinary case found that, based on Attorney Nora's 40 years of
experience as an attorney and her comments during the summary judgment hearing, she
understood the Rooker—Feldman doctrine before she filed any of her federal court actions.
The referee further found that Attorney Nora did not have a good faith basis for filing the
RICO district court action against the defendants in the Western District Court and that she
had filed that action in order to harass them for taking away her Madison residence.
20 On March 18, 2013, nearly six months after the Western District Court had ruled that
her claims against her former opposing counsel could not be brought in federal court,
Attorney Nora filed an adversarial
[38o Wis.2d 323]

iastca se

-5-

Office of La

er Regulation v. Nora In re Nora 909 N.W.2d 155, 2018 WI 23, 380 Wis.2d 311 (Wis., 2018

proceeding against many of the same defendants in a bankruptcy proceeding in the United
States Bankruptcy Court for the Southern District of New York (the Southern District
Bankruptcy Court).8 The referee found that the allegations in Attorney Nora's complaints in
the RICO district court action and the Southern District adversarial proceeding were almost
identical, that Attorney Nora knew that the adversarial proceeding was barred by the
Rooker—Feldman doctrine, and that she had initiated the adversarial proceeding to harass
her former opposing counsel and to reverse the state court foreclosure judgment.
21 After nearly eight months, Attorney Nora dismissed her Southern District adversarial
proceeding as part of a settlement with the defendant attorneys and law firms. The referee
found that the defendant attorneys spent a considerable amount of time and money
defending both the RICO district court action and the Southern District adversarial
proceeding .9
¶

[909 N.W.2d 162]

¶ 22 On the basis of these factual findings, either as admitted by Attorney Nora or as found
by the referee after an evidentiary hearing, the referee concluded that the OLR had proven all
four counts of misconduct alleged in its amended complaint by clear, satisfactory, and
convincing evidence. Specifically, the referee determined with respect to Count 2 that
Attorney
[380 Wis.2d 324]
Nora's August 26, 2009, facsimile transmission to Judge Colas alleging that her execution of
a modified version of the Agreement stayed the foreclosure action constituted a false
statement of material fact made to a tribunal, in violation of SCR 20:3.3(a)(1). On Count 1,
the referee concluded that in bringing the federal lawsuit against Judge Colas, Attorney Nora
had knowingly advanced a claim that was unwarranted under existing law (or a good faith
argument for an extension, modification, or reversal of the law) and had filed a suit when she
knew that the action would serve merely to harass or maliciously injure another, in violation
of SCR 20:3.1(a). With respect to Counts 3 and 4, the referee also concluded that Attorney
Nora's two federal complaints against her former opposing counsel had likewise constituted
violations of SCR 20:3.1(a).
23 Citing the factors that this court has set forth for analyzing the appropriate level of
discipline,m2 the referee recommended that the court suspend Attorney Nora's license to
practice law in this state for a period of one year. The referee acknowledged that other
attorneys have committed more numerous violations, but stated that Attorney Nora's
"violations involving an aggressive strategy to harm others warrant a suspension
necessitating a petition for reinstatement so some investigation into her ability to conform
her
[38o Wis.2d 325]

fastcase

-6-

Office of Lawyer Requlation v. Nora (In re Nora), 909 N.W.2d 155, 2018 WI 23, 380 Wis.2d 311 (Wis., 2018)

litigation tactics to appropriate boundaries occurs." The referee compared Attorney Nora's
misconduct to the filing and maintaining of a frivolous lawsuit that resulted in this court
imposing a six-month suspension. In re Disciplinary Proceedings Against Widule, 2003 WI
34, 261 Wis. 2d 45, 66o N.W.2d 686. Unlike Attorney Widule, however, Attorney Nora had a
prior disciplinary suspension for misconduct that the referee concluded was similar to the
misconduct at issue in the present proceeding. Consequently, the referee believed that a
more severe level of discipline was warranted for Attorney Nora.
¶ 24 When we review a referee's report, we will affirm a referee's findings of fact unless they
are found to be clearly erroneous, but we review the referee's conclusions of law on a de novo
basis. In re Disciplinary Proceedings Against Inglimo, 2007 WI 126, 115, 305 Wis. 2d 71, 740
N.W.2d 125. We determine the appropriate level of discipline to impose given the particular
facts of each case, independent of the referee's recommendation, but benefiting from it.
Widule, 261 Wis. 2d 45, ¶ 44, 66o N.W.2d 686.
¶ 25 Nearly all of Attorney Nora's arguments on appeals focus on challenges
[909 N.W.2d 163]
to the procedures that the OLR and the referee followed, both prior to and during
[38o Wis.2d 326]
this disciplinary case. The only real challenge to the substance of the referee's report is found
at the very end of Attorney Nora's opening brief, where she asserts that the evidence was
insufficient to support the referee's conclusions of misconduct on Count 1 (Judge Colas
lawsuit), Count 3 (RICO district court action), and Count 4 (Southern District adversarial
proceeding). Before turning to her various procedural arguments, we will analyze the
referee's conclusions of violations on all four counts, as that impacts some of Attorney Nora's
procedural arguments.
¶ 26 First, we address Count 2. We agree with the referee that summary judgment on this
count was appropriate. Attorney Nora admitted all of the allegations in the OLR's amended
complaint, either in her answer or during argument on the OLR's summary judgment
motion. Specifically, she admitted that (0 she had changed a material term in the offer by
writing in a reservation of her claims against the lender and (2) on the day before she faxed
her letter to Judge Colas, Attorney Potteiger "informed [her] in writing that the reservation
of her counterclaims found in [Attorney] Nora's Foreclosure Repayment Agreement
counteroffer was rejected." Attorney Potteiger's informing her of that fact necessarily
included that she had received his writing (i.e., his email). Attorney Nora's claim after
summary judgment on Count 2 that she had not received his email is therefore unavailing.
Her admissions demonstrate that her letter to Judge Colas contained a knowingly false
statement.

eastease

-7-

Office of Lawyer gulation v. Nora (In re Nora , 909 N.W.2d 155, 2018 WI 23, 380 Wis.2d 311 Wis., 2018

¶ 27 Further, Attorney Nora's receipt of Attorney Potteiger's August 25, 2009 email is
unnecessary to uphold the violation of SCR 20:3.3(a)(1). Like all law
[38o Wis.2d 327]
students, Attorney Nora knew that making material revisions to a contract offer and then
signing the revised contract offer does not constitute an acceptance of the offer, but rather
creates a counteroffer that the other party must affirmatively accept before there is an
agreement. See, e.g., Schwartz v. Handorf, 7 Wis. 2d 228, 236, 96 N.W.2d 366 (1959) ;
Fricano v. Bank of America NA, 2016 WI App 11, ¶ 29, 366 Wis. zd 748, 875 N.W.2d 143 ("..•
an acceptance that varies the terms of the offer constitutes a rejection and a counteroffer").
She therefore knew at the time of her facsimile transmission to Judge Colas, even without
regard to whether she had received Attorney Potteiger's reply email, that she had no binding
contract. The assertion in her letter that the foreclosure action was therefore stayed because
of the Foreclosure Repayment Agreement was a false statement of fact that Attorney Nora
knew to be false. Accordingly, we accept the referee's conclusion of a violation of SCR
20:3.3(a)(1).
¶ 28 With respect to Attorney Nora's federal action against Judge Colas, the referee found
that Attorney Nora had not had a legitimate purpose for filing the complaint and that she had
done so in order to harass Judge Colas and obstruct the foreclosure action. Attorney Nora
attacks these findings only by making a general allegation that the evidence was insufficient
to support a violation and by asserting that Judge Colas was not protected by judicial
immunity because her request for retroactive extensions of time due to an alleged disability
were administrative matters. She does not specifically allege that the referee's findings are
clearly erroneous.
[380 Wis.2d 328]
[909 N.W.2d 164]
29 Attorney Nora's assertion about a lack of judicial immunity, however, is irrelevant. The
referee did not find that her federal action against Judge Colas was without merit because he
was immune from suit. The referee found that Attorney Nora claimed she brought the suit
because she wanted to obtain disability accommodations, but she did not seek such
accommodations from Judge Colas before he granted summary judgment against her and
she no longer needed accommodations when she initiated the federal action. Moreover, the
referee found that Attorney Nora brought the federal claim against Judge Colas not to gain
disability accommodations, but as a way to force him off the foreclosure action and to undo
his prior summary judgment ruling, which was included in her prayer for relief in the federal
action. Given the facts as found by the referee, we agree that Attorney Nora's federal action
against Judge Colas, at least to the extent it sought his disqualification and the vacation of
the summary judgment in the state foreclosure action, was unwarranted under existing law
and was clearly pursued in an attempt to harass or maliciously injure another, in violation of
SCR zo:3.1(a).
¶

fastca se

-8-

Office of Lawyer gulation v. Nora In re Nora), 909 N.W.2d 155, 2018 WI 23, 380 Wis.2d 311 Wis., 2018

¶ 30 Attorney Nora also alleges that there was insufficient evidence to support Counts 3 and
4 regarding her RICO actions against her former opposing counsel. She asserts that attorneys
who actively participate in conspiracies that violate RICO are liable for damages to an injured
party. As in her complaint against Judge Colas, however, her complaints against her
opposing counsel were not simply seeking an award of damages, but were attempts to attack
the foreclosure judgment collaterally. According to the referee, Attorney Nora initially tried
in this proceeding to
[380 Wis.2d 329]
present certain arguments as to why her RICO complaints had been brought in good faith
under existing law, but she then abandoned those arguments when she filed her post-hearing
brief. The referee concluded that Attorney Nora lacked credibility in her claims, that she
understood the Rooker—Feldman doctrine based on her own assertions of experience with it,
that she filed the federal RICO actions for the ulterior purpose of undoing or avoiding the
state foreclosure judgment despite her knowledge that the doctrine prohibits subsequent
federal actions from overturning prior state court judgments, and that she pursued the
federal RICO actions to harass her former opponents. Tellingly, Attorney Nora does not
dispute in her briefs that her federal RICO actions were intended to undo or avoid the
foreclosure judgment or that she knew the Rooker—Feldman doctrine prevented the federal
courts from invalidating that judgment. Accordingly, we agree with the referee that, based on
the referee's findings, there is sufficient evidence to conclude that Attorney Nora violated
SCR 20:3.1(a) by pursuing the two RICO actions against her former opposing counsel, as
alleged in Counts 3 and 4.
¶ 31 We now turn to Attorney Nora's arguments challenging the process by which the OLR
conducted its investigation and charging decision. She initially argues that this disciplinary
proceeding violated her rights to free speech and to petition the government under the First
Amendment to the United States Constitution and Article I, § 4 of the Wisconsin
Constitution because the OLR intended to punish her on behalf of her litigation opponents.
We reject her claims. First, she offers absolutely no evidence to support her bare claim that
the OLR intended to punish her.
[38o Wis.2d 33o]
Second, Attorney Nora fails to recognize that there is no First Amendment right to violate
ethical rules in litigation that prohibit attorneys from making
[909 N.W.2d 165]
false statements to tribunals and from using court proceedings to harass or maliciously
injure presiding judges or opposing counsel. See, e.g., Zauderer v. Office of Disciplinary
Counsel of Supreme Court of Ohio, 471 U.S. 626, 638, 105 S.Ct. 2265, 85 L.Ed.2d 652 (1985)
("The States and the Federal Government are free to prevent the dissemination of
commercial speech that is false, deceptive, or misleading."); Gertz v. Robert Welch, Inc., 418

1+astca se

-9-

Office of Lawyer Regulation v. Nora In re Nora , 909 N.W.2d 155, 2018 WI 23, 380 Wis.2d 311 Wis., 2018

U.S. 323, 34o, 94 S.Ct. 2997, 41 L.Ed.2d 789 (1974) ("But there is no constitutional value in
false statements of fact."); McCoy v. Court of Appeals of Wisconsin, Dist. 1, 486 U.S. 4 29,
436, 108 S.Ct. 1895, 100 L.Ed.2d 44o (1988) ("Neither paid nor appointed counsel may
deliberately mislead the court with respect to either the facts or the law, or consume the time
and the energies of the court or the opposing party by advancing frivolous arguments.");
Florida Bar v. Sayler, 721 So.2d 1152 (Fla. 1998) ("The First Amendment does not protect
those who make harassing or threatening remarks about the judiciary or opposing counsel.").
1132 Attorney Nora also asserts that she was deprived of due process and equal protection12
during the investigation conducted by the OLR. Specifically, she alleges that the OLR
violated her due process rights by improperly using and re-disclosing her medical
information to the Preliminary Review Panel (PRP). We need not decide the merits of her
claims in
[380 Wis.2d 331]

the context of this disciplinary proceeding. We conclude that this situation is similar to a
claim of error at a preliminary hearing in a criminal case, which we have refused to decide
when there has been a proper subsequent trial. State v. Webb, 16o Wis. 2d 622, 628, 467
N.W.2d 108 (1991) ("We do not decide the question of whether there was error at the
preliminary hearing in this case, because we hold that a conviction resulting from a fair and
errorless trial in effect cures any error at the preliminary hearing."). Similarly, to the extent
that Attorney Nora is alleging an error or impropriety in the investigation phase, we conclude
that the subsequent holding of a proper disciplinary hearing cured any arguable error.13
¶ 33 Attorney Nora also alleges that her due process rights were violated in the charging
decision. Specifically, she points to the fact that Attorney Edward A. Hannan, who was the
chair of the Preliminary Review Committee (PRC), had a conflict of interest because he was
representing parties who were adverse to Attorney Nora in a civil action pending in the
Waukesha County circuit court (Bank of America, N.A. v. Brown, Waukesha County Case No.
2011CV3333).0
[380 Wis.2d 332]

[909 N.W.2d 166]
¶ 34 Attorney Nora is not entitled to any relief regarding this allegation. Initially, we note
that this argument was raised for the first time on appeal, and we generally do not address
the merits of untimely issues, especially where raising the issue could have allowed the
parties or the tribunal to take action to eliminate the ground for the objection. Terpstra v.
Soiltest, Inc., 63 Wis. 2d 585, 593, 218 N.W.2d 129 (1974). We decline to do so here.Th
[38o Wis.2d 333]
¶ 35 Attorney Nora also claims that this disciplinary proceeding must be invalidated in its
entirety because the referee, Attorney Lisa C. Goldman, was biased against her. As examples
f
-10-

iastca se

Office of Lawyer Re ulation v. Nora In re Nora , 909 N.W.2d 155, 2018 WI 23, 380 Wis.2d 311 (Wis., 2018)

of this alleged bias, Attorney Nora points to various decisions and rulings by Referee
Goldman that were adverse to, and even critical of, Attorney Nora's requests or positions.
Mere adverse rulings or critical statements based on a judicial officer's consideration of a
litigant's arguments or evidence and the officer's experience with a litigant during a
proceeding, however, are usually not sufficient to demonstrate bias on behalf of the presiding
judicial official. See, e.g., Liteky v. United States, 510 U.S. 540, 555, 114 S.Ct. 1147, 127
L.Ed.2d 474 0994) ("First, judicial rulings alone almost never constitute a valid basis for a
bias or partiality motion. ... Second, opinions formed by the judge on the basis of facts
introduced or events occurring in the course of the current proceedings, or of prior
proceedings, do not constitute a basis for a bias or partiality motion unless they display a
deep-seated favoritism or antagonism that would make fair judgment impossible. Thus,
judicial remarks during the course of a trial that are critical or disapproving of, or even
hostile to, counsel, the parties, or their cases, ordinarily do not support a bias or partiality
challenge."). We also disagree with Attorney Nora's claim that Referee Goldman
demonstrated bias by becoming an advocate for the OLR rather than a neutral and detached
magistrate. The record does not support this assertion.
¶ 36 Attorney Nora also alleges that Referee Goldman demonstrated bias by comparing
Attorney Nora's continuing practice of law to a criminal who keeps committing crimes after
charges have already been filed. This claim, however, is not accurate because it takes the
referee's statement out of context. The
[380 Wis.2d 3341
referee never called Attorney Nora a criminal or compared her to a criminal. It is clear from
the context of the referee's statement, which was made in the course of denying the OLR's
motion for leave to file an amended
[909 N.W.2d 167]
complaint to add new, unrelated counts, that the referee believed such an amendment at that
point in the case would interfere with the efficient resolution of this ongoing proceeding. The
referee was simply reasoning by analogy to the question of amending criminal complaints to
add new alleged crimes. Her point was that when there can be a new criminal charge based
on conduct that occurred after the initial criminal complaint has been filed, courts usually
require prosecutors to initiate a second criminal proceeding rather than delaying a pending
criminal case through an amendment of that complaint. The referee's comments about this
procedural issue evince no animus toward Attorney Nora.
1137 Finally, Attorney Nora claims that the referee admitted her bias because in her decision
denying Attorney Nora's second motion for disqualification, the referee stated that she had
"not acted impartially." This argument borders on the frivolous, as it is clear from the
surrounding text that the inclusion of the word "not" was an unintended, typographical
error. The referee unambiguously rejected Attorney Nora's claims that she was biased. There
is no legal basis for this court to find otherwise.

'
lastease

-11-

Office of Lawyer Regulation v. Nora (In re Nora), 909 N.W.2d 155, 2018 WI 23, 380 Wis.2d 311 (Wis., 2018)

¶ 38 In the end, we find no basis in the record to overturn Referee Goldman's subjective
determination that she could be fair in her duties or to conclude that Referee Goldman was
objectively biased.
¶ 39 We have considered the rest of Attorney Nora's arguments alleging prosecutorial
misconduct by the OLR and erroneous procedures by the referee.
[380 Wis.2d 335]
We conclude that they are without legal merit, although we will not address them specifically
in this opinion.
1140 We turn now to the issue of the appropriate sanction for the four counts of misconduct
that we have found. We agree with the referee's analysis of Attorney Nora's misconduct in
comparison to the misconduct that resulted in a six-month suspension for Attorney Widule.
Unlike Attorney Widule, Attorney Nora has been disciplined previously for misconduct,
some of which was similar in nature. Moreover, her misconduct in this case is aggravated by
the fact that it was not an isolated occurrence, but rather was a pattern of multiple instances
of misconduct that stretched over a substantial period of time. In addition, her misconduct
was not based on her failure to do something, but on her affirmative and aggressive attempts
to use the judicial system to obstruct the foreclosure of her property and to harass those she
apparently deemed responsible for the loss of that property. She has offered no basis for this
court to conclude that she recognizes her misconduct or that she would change her tactics in
similar circumstances in the future. Accordingly, we conclude that the misconduct at issue
here requires a more severe level of discipline than we imposed on Attorney Widule. We
determine that a one-year suspension of Attorney Nora's license to practice law in Wisconsin
is necessary and appropriate under these circumstances.
¶ 41 Finally, it seems apparent that Attorney Nora believes that she must personally fight
abuses or improprieties in the real estate lending industry. A lawyer's fight for any cause,
however noble one might think it to be, must be conducted within the ethical
[380 Wis.2d 336]
rules that govern the lawyer's conduct. Attorney Nora must demonstrate that she
understands this principle and can conform her conduct to the applicable ethical rules before
she may return to the practice of law in this state.
1142 IT IS ORDERED that the license of Wendy Alison Nora to practice law in Wisconsin is
suspended for a period of one year, effective April 30, 2018.
[909 N.W.2d 168]
¶ 43 IT IS FURTHER ORDERED that the issues of restitution and the assessment of costs
shall continue to be held in abeyance for resolution at a subsequent time after the automatic
stay arising from Attorney Nora's bankruptcy proceeding has been lifted.
f.
-12-

taste/ase

Office of Lavryer Regulation v Nora In re Nora), 909 N.W.2d 155, 2018 WI 23, 380 Wis.2d 311 (Wis., 2018

¶ 44 IT IS FURTHER ORDERED that Wendy Alison Nora shall comply with the provisions of
SCR 22.26 concerning the duties of a person whose license to practice law in Wisconsin has
been suspended.
¶ 45 IT IS FURTHER ORDERED that compliance with all conditions of this order is required
for reinstatement from the suspension imposed herein.

Notes:
1 The

referee also recommended that the court order Attorney Nora to pay certain defense
costs incurred by two law firms who were sued by Attorney Nora and that the court require
Attorney Nora to pay the full costs of this disciplinary proceeding. Due to the fact that
Attorney Nora currently has a bankruptcy proceeding pending and in order to avoid any
possible conflict with the automatic stay arising from that bankruptcy proceeding, we have
previously held the issues of restitution and costs in this proceeding in abeyance.
Consequently, we will not address those issues in this decision.

Attorney Nora's license to practice law in Minnesota was indefinitely suspended with the
ability to petition for reinstatement after 30 days. The misconduct that resulted in that
suspension involved making misrepresentations concerning the reopening and capitalization
of a bank, failing to adequately investigate the person who was to provide capital to the bank,
improperly authorizing the issuance of cashier checks by the bank, bringing a frivolous claim
against a bank, transferring assets of her Minnesota law partnership in an attempt to insulate
those assets from collection, bringing litigation primarily as a delay tactic, and asserting a
legal theory not justified by existing law. Nora I, 173 Wis. 2d at 660-61, 495 N.W.2d 99 ; see
also In re Disciplinary Action Against Nora, 45o N.W.2d 328 (Minn. 199o). While her
Wisconsin license was reinstated in May 1993 after the 3o—day suspension had expired, she
did not successfully petition to have her Minnesota license reinstated until January 2007.
Residential Funding Co. LLC v. Nora, Dane County Case No. 09-CV-1096.
In her answer, Attorney Nora specifically admitted the truth of these statements, which
were found in paragraph 22 of the OLR's Amended Complaint.
4

The referee noted that Attorney Nora testified in this proceeding that she had sought
assistance with accommodation issues from the clerk of circuit court in January 2010
because of medical issues, but the clerk's office advised her that she needed to request
additional time to respond to pleadings and motions from Judge Colas. She did not do so
until after he had granted summary judgment against her.
5

This action against her former opposing counsel in the Western District Court will be
referenced in this opinion as "the RICO district court action" to distinguish it from the action
against Judge Colas and a similar action filed in a federal bankruptcy court, which is
discussed below.

5

fastcase

-13-

Office of Lawyer Regulation v. Nora (In re Nora), 909 N.W.2d 155, 2018 WI 23, 380 Wis.2d 311 (Wis., 2018)

2 The Rooker—Feldman doctrine, which is based on the concept that only the United States
Supreme Court may review state court judgments applying federal law, broadly prohibits
federal courts from exercising subject matter jurisdiction over claims that seek relief that is
tantamount to vacating a state court judgment. United States v. Alkaramla, 872 F.3d 532,
534 (7th Cir. 2017) ; Mains v. Citibank, N.A., 852 F.3d 669, 675 (7th Cir. 2017) ; see also
Rooker v. Fidelity Trust Co., 263 U.S. 413, 44 S.Ct. 149, 68 L.Ed. 362 (1923) ; District of
Columbia Court of Appeals v. Feldman, 460 U.S. 462, 103 S.Ct. 1303, 75 LEd.zd 206 (1983).
This adversarial proceeding will be referenced in this opinion as "the Southern District
adversarial proceeding."

5

For example, the referee determined that the Gray firm had spent over $25,000 hiring a
separate law firm to defend against just the RICO district court action. Further, the Bass
firm's malpractice insurance premiums rose as a result of Attorney Nora's allegations in the
RICO district court action and the Southern District adversarial proceeding.

9

Those factors include: "(0 the seriousness, nature and extent of the misconduct; (2) the
level of discipline needed to protect the public, the courts, and the legal system from
repetition of the attorney's misconduct; (3) the need to impress upon the attorney the
seriousness of the misconduct; and (4) the need to deter other attorneys from committing
similar misconduct." In re Disciplinary Proceedings Against Carroll, 2001 WI 130, ¶ 40, 248
Wis. 2d 662, 636 N.W.2d 718.
R- In multiple places in her briefs, Attorney Nora purports to incorporate by reference
arguments from prior filings. This is improper in appellate briefs, which are limited to a
specified number of words or pages by rule. See e.g., State v. Armstead, 220 Wis. zd 626,
642 n.6, 583 N.W.2d 444 (Ct. App. 1998) ; State v. Flynn, 190 Wis. zd 31, 58, 527 N.W.2d
343 (Ct. App. 1994) ; see also Michael S. Heffernan, Appellate Practice and Procedure in
Wisconsin § 11.14 (7th Ed. 2017).
Although Attorney Nora mentions equal protection in her brief, she does not develop any
legal argument based on equal protection. Accordingly, we do not consider that issue.
Parsons v. Associated Banc—Corp., 2017 WI 37, ¶ 39 n.8, 374 Wis. zd 513, 893 N.W.2d 212.
In any event, we question how Attorney Nora's allegations would foreclose this court from
considering whether she can be disciplined for violation of the Rules of Professional Conduct
for Attorneys. First, the OLR did not offer any of the medical information in this disciplinary
case. Thus, no violation is based on any of the medical information. Further, the referee
found that the records, which had been submitted to a federal district court, were not
confidential and had not been treated as confidential by the federal district court, a fact
which Attorney Nora admitted at the disciplinary hearing.

13

Attorney Nora has filed a request for the court to take judicial notice of five documents, but
it is clear from her request that she is really asking the court to take judicial notice of two
adjudicative facts from those documents: (i) that Attorney Hannan served as the chair of the
PRC during the 2012-13 fiscal year when the cause-to-proceed determination regarding the

14

iCastca se

-14-

Office of Lawyer Repletion v. Nora (In re Nora), 909 N.W.2d 155, 2018 WI 23, 380 Wis.2d 311 (Wis., 2018)

counts of misconduct alleged in this case was made, and (2) that during the same time period
Attorney Hannan represented parties who were adverse to Attorney Nora in the Waukesha
County circuit court action. We take judicial notice of these two adjudicative facts as they are
"capable of accurate and ready determination by resort to sources whose accuracy cannot
reasonably be questioned." Wis. Stat. § 902.01(2)(b). We do not take judicial notice of all of
the contents of the five documents because not all of those contents meet this criteria. With
respect to the fifth identified document, Attorney Nora's petition for an interlocutory appeal
in this disciplinary proceeding, there is no need for us to take judicial notice as that
document is before us as a filing in this disciplinary action.
Even if we were to consider the claim, Attorney Nora has not demonstrated that her due
process rights were violated. The cause-to-proceed determination in a disciplinary
investigation is made by a Preliminary Review Panel, which is only a subset of the PRC.
Although Attorney Hannan was the chair of the PRC, Attorney Nora does not allege that he
was a member of the panel that actually reviewed her case. Indeed, at oral argument, counsel
for the OLR advised the court that he was not a member of that panel, and Attorney Nora did
not dispute that fact. Thus, Attorney Nora cannot show that the cause-to-proceed
determination in this matter was tainted by a panel member who had a conflict of interest.

15

r

eastca se

-15-

EXHIBIT 3

FLED
STATE OF MINNESOTA
IN SUPREME COURT

June 28, 2019

OFRCE OF
APPELLATE COURTS

A18-1574

In re Petition for Disciplinary Action
Against Wendy Alison Nora, a Minnesota Attorney,
Registration No. 0165906.

ORDER
Based upon all the files, records, and proceedings herein,
IT IS HEREBY ORDERED that the petition of Wendy Alison Nora for rehearing
pursuant to Rule 15(c), Rules on Lawyers Professional Responsibility, be, and the same is,
denied. See also Minn. R. Civ. App. P. 140.01.
Dated: June 28, 2019

BY THE COURT:

David L. Lillehaug
Associate Justice

ANDERSON, J., took no part in the consideration or decision of this case.

Additional material
from this filing is
available in the
Clerk's Office.

